No.
IN THE SUPREME COURT OF THE UNITED STATES

LAWRENCE MILLS,
Petitioner,

v.
ANTHONY HASSAN, ET AL.

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1 (h), I certify that the petition
for a Writ of Certiorari contains 2662 words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 5. 2021.
Lawrence J. Mills
705 Winhall Way
Silver Spring, MD 20904
(240) 338-4999
Petitioner

